MEMORANDUM


                                                                             August 26, 2005


To:          Jeffrey Risinger
From:        Walter Stachnik    u.}
Re:          Recruitment, Classification, and Staffing Audit


Attached is our audit report (No. 389) of Recruitment, Classification, and Staffing in the
Office of Human Resources.
We would appreciate receiving any additional comments you have concerning this audit
and the report. In particular, we would like to know whether you found the audit useful.
We also welcome any suggestions from you concerning how we could improve future audits.
The courtesy and cooperation of you and your staff during this audit are appreciated.

Attachment
cc:
        Peter Uhlmann
        Rick Hillman
        Carol Smith
        Trinette Smith
        Dana Schlichtmann
        Christopher Kubelick
        Marcia Spillane
        Lemont Neal
        James McConnell
        Darlene Pryor
                RECRUITMENT,
             CLASSIFICATION, AND
                  STAFFING

                    EXECUTIVE SUMMARY
We found that for the most part, the Office ofHuman Resources' (OHR) recruitment,
staffing, and classification procedures were efficient and effective. Over the last
several years, OHR has expanded its recruitment efforts and hired over 1000 new
staffas the Commission's budget increased. To further enhance its procedures,
OHR recently implemented a human resources staffing and classification service,
A vue Digital Services (ADS). to automate the staffing and classification process.
The use ofA vue can be improved by providing additional training to OHR staffand
Commission managers, and by updating position descriptions in the ADS system.
We are also recommending improved procedures for terminating management level
access for separating employees.


                  SCOPE AND OBJECTIVES
Our objective was to determine whether the Office of Human Resource's
recruitment, classification, and staffing procedures were effective and efficient. We
also reviewed whether the implementation of the Avue automated service needed to
be improved.
Our audit steps included tests of ADS's access controls, review of relevant
documentation, interviews with OHR staff and the ADS contractor, and a survey of
Commission staff with management level access to the ADS system. Our audit was
performed in accordance with generally accepted government auditing standards
between January 2005 and May 2005.


                            BACKGROUND
RECRUITMENT
OHR's Branch of Recruitment, Work· life, and Disability Programs is responsible for
Commission recruitment. Together with search firms and program office staff, the
Branch staff attend job fairs and conferences at universities.
                                                                                         2


The Commission offers recruitment bonuses and student loan repayment as
incentives to attract and retain highly qualified staff. Another recruitment tool is
the summer intern program for honor students in fields such as accounting, finance,
law, and information technology. The program provides an opportunity for these
students to assess their interest in a position at the Commission after graduation.
Between fiscal years 2002 and 2004, the Branch staff participated in more than 100
recruitment events. During fiscal year 2004, OHR appointed 186 summer interns.

CLASSIFICATION
OHR's three Classification, Staffing, Benefits, and Payroll Branches classify
Commission positions based on the position description (PD) developed by
management. The PD describes the qualifications for a position, its duties and
responsibilities, and supervisory relationships. OHR recommends the use of
standard language in a PD to make classification easier.
Each position is assigned an occupational series (e.g., 905 for attorney, 510 for
accountant) and grade level. Generally, the classification is based on nine standard
factors (knowledge required by the position, supervisory controls, guidelines,
complexity, scope and effect, personal contacts, purpose of contacts, physical
demands, and work environment).
The Pay, Employee Benefits, and Special Projects Branch Chief acts as the
Contracting Officer's Technical Representative (COTR) for ADS, it has overseen
ADS implementation, including training for OHR and other Commission staff.

STAFFING
The three Classification, Staffing, Benefits, and Payroll Branches manage the hiring
of new employees. Between fiscal years 2002 and 2004, the branches processed
approximately 3000 employment applications, and appointed 1174 new employees,
including 461 attorneys, 309 accountants, and 208 examiners.
To expedite this surge in hiring (resulting from Commission budget increases), the
Commission sought and was granted certain hiring flexibilities in the Accountant,
Compliance, and Enforcement Staffing Act of2003 (Public Law 108·44). The Act
allows Commission accountants, economists, and securities compliance examiners to
be hired without regard to certain civil service rules and procedures.
During the hiring process, the branches advise and assist Commission management.
This process includes posting of vacancy announcements, review of applicants to
determine which are qualified for the position, interviews of qualified applicants,
selection of the new employee, and procedures to bring the employee on board.
The branch staff analyze jobs and apply Office of Personnel Management (OPM)
qualification standards which establish the skills, experience, and education
required for filling the job. All positions are posted on the Commission's and OPM's
web sites. In addition, the recruitment staff may publish paid advertisements to
solicit applications for certain vacancies (e.g., an advertisement in a legal journal for



Recruitment, Classification, and Staffing (Audit No. 389)              August 26, 2005
                                                                                         3

an attorney position). Branch staff rank the applicants based on their background
and the qualification standards for the ROsition.

AVUE DIGITAL SERVICES
In May 2004, OHR contracted with ADS for an automated, Internet·based human
resource staffing and classification service. The service is designed to reduce
staffing cycle time for OHR staff and program management by automating many
classification and staffing functions.
The Commission uses the service to automate the processes involved to create
classified positions and provide key documentation related to the position. ADS uses
rule engines to determine relationships between duties, job classification, and the
recruitment and staffing criteria necessary to evaluate applicants for the job.
ADS maintains an occupational content database which contains major duty areas
and responsibilities for a wide range of federal positions at various grade levels. The
HR Specialist selects from this pre-established occupational content to generate
position descriptions. In order to produce accurate position descriptions, the service
requires that occupational content relevant to the specific position or industry reside
in the database.
The HR Specialist using the service builds a custom vacancy announcement based
on the position description. The applicant completes the application online and
submits it for rating and ranking. The service then automatically rates and, where
appropriate, ranks the applicants.
As a standard procedure, OHR reviews the service-generated rating to ensure
validity and integrity. OHR has the option of overriding system determinations,
where appropriate. With the assistance of the service, OHR then generates a
certificate (a list of qualified candidates). This list is electronically provided to
referral team members and the selecting official for final selection.
ADS also notifies applicants of canceled vacancy announcements and the disposition
of their applications. The service allows applicants to define their interest so that
they are automatically informed by e·mail when positions are posted that match
their profile.
All applications are electronically archived to provide an historical record of all
applicant transactions. A centralized database of applicant information can be
queried to retrieve applications of candidates with previously determined skill sets
and competencies for open positions.
ADS implementation was phased in from mid·June to mid-September of 2004. OHR
allowed each office or division to select its implementation period.
Implementing an automated classification and staffing service involved a culture
change, which OHR recognized. OHR helped offices and divisions set up an ADS
Migration Team to help provide ADS training for Commission staff.
Most ADS Migration Team representatives are administrative personnel who help
schedule training sessions and are involved in the classification and staffing
process. The representatives inform the HR Specialists in the three Classification,


Recruitment, Classification, and Staffing (Audit No. 389)              August 26, 2005
                                                                                          4

 Staffing, Benefits, and Payroll Branches of the designated selecting official for each
 automated vacancy announcement.
 OHR and the Migration Team arranged over 60 on·site training sessions for over
 700 employees and managers. Additional training is anticipated. ADS offers
 unlimited training as a feature of the Commission contract.
 OHR has established internal procedures for ADS use by OHR staff and
 administrative contacts. OHR indicated that these procedures are reviewed
 continually by OHR managers to ensure that the procedures meet user needs, match
 previous staffing procedures, and ensure proper information security.

                                     AUDIT RESULTS
 We found that for the most part, OHR's classification, recruitment, and staffing
 activities were efficient and effective. OHR has hired a large number of new staff
 over the last few years, and has implemented an automated classification and
 staffing service (ADS) to increase efficiency.
 We also found that the ADS implementation and system access procedures can be
 improved. Our detailed findings and recommendations are discussed below.

 AVUE DIGITAL SERVICES IMPLEMENTATION
 Based on our limited and informal survey, some Commission managers who have
 used the ADS to fill vacancies were not satisfied with the system. We surveyed 117
 users, and obtained 42 responses (several respondents did not answer all questions).
 Only 12 users were satisfied with the system, 8 were neutral, and 18 were
 dissatisfied with it. Some users found the system cumbersome and difficult to use.
 The responses were somewhat more positive for the hiring process as a whole (23
 positive and 18 negative responses), and for the level of OHR service (25 positive and
 11 negative responses).
· One reason for the dissatisfaction with ADS appeared to be that OHR and program
  office staff did not achieve an adequate comfort level with the use of the service
  before they attempted to deploy it. Since the staff were unfamiliar with the service
  and how it worked, they were unable to use it comfortably, despite the training
  offered and ADS's on·site assistance. Nevertheless, OHR has been able to advertise
  more than 300 positions using the ADS service.
 Additional ADS training appears appropriate to supplement the training and
 assi.stance already provided by OHR and ADS.
 Another problem with ADS implementation was that position descriptions for many
 positions were uploaded into the Avue system without Commission-specific content.
 OHR indicated that it forwarded Commission information to the vendor prior to the
 deployment of the service. ADS needs Commission-specific content to build current
 position descriptions in order to rank applicants properly.
 OHR also has developed procedures to survey users periodically on how to improve
 use of ADS. Its staff has developed a 15·point plan of action incorporating
 management issues and concerns reflected in the OHR survey results.


 Recruitment, Classification, and Staffing (Audit No. 389)             August 26, 2005
                                                                                         5


OHR indicated that many of the issues have been resolved, and the OHR staff is
working to resolve the outstanding issues. In collaboration with office and division
staff, OHR is revising ADS position content to include Commission-specific wording,
as most ADS users surveyed prefer.

          Recommendation A
          In consultation with the ADS contractor, OHR should provide additional ADS
          training to OHR staff and to managers who use the service for staffing.

          Recommendation B
         In consultation with the program offices, OHR should revise position
         descriptions using Commission-specific content in accordance with OPM
         guidelines.

AVUE SYSTEM ACCESS
The Commission's contract with ADS provides that only authorized Commission
managers have the right to use ADS. OHR is responsible for granting
management·level Avue access rights (i.e., the ability to construct position
descriptions). It maintains a listing of authorized users (approximately 190).
We reviewed the March 2005 listing and found seven users who had separated from
the Commission between November 2004 and February 2005, yet still had
management· level access. OHR has now established procedures to cancel managers'
ADS access when appropriate.

          Recommendation C
         OHR should follow clearance procedures for the cancellation of a manager's
         access to ADS when they leave the Commission. It should also periodically
         review the listing of authorized ADS users to verify and cancel access rights
         as appropriate (including the seven separated staff we identified).




Recruitment, Classification, and Staffing (Audit No. 389)             August 26, 2005
